ORIGINATION AND CLOSING DEFICIENCIES IDENTIFIED IN
       7(A) RECOVERY ACT LOAN APPROVALS




               Report Number: ROM 11-07 

              Date Issued: September 30, 2011 





                       Prepared by the 

                 Office of Inspector General 

             U.S. Small Business Administration 

          u.s. Small Business Administration
          Office of Inspector General                                  Memorandum
    To: 	 Grady Hedgespeth                                                        Date:   September 30,2011
          Director, Office of Financial Assistance

          John A. Miller 

          Director, Office of Financial Program Operations 

          /s/ Original Signed 

 From:    John K. Needham 

          Assistant Inspector General for Auditing 


Subject: 	 Origination and Closing Deficiencies Identified in 7(a) Recovery Act Loan Approvals
           ROM 11-07

          This report presents the results of the audit of7(a) loans approved pursuant to the
          American Recovery and Reinvestment Act of2009, Public Law 111-5 (Recovery Act).
          The Recovery Act provided the Small Business Administration (SBA) with $730 million
          to expand the Agency's lending and investment programs and create new programs to
          stimulate lending to small businesses. Of the $730 million received, $375 million was
          authorized for the SBA to (1) eliminate or reduce fees charged to lenders and borrowers
          for 7(a) and 504 loans, and (2) increase its maximum loan guaranty to 90 percent for
          eligible 7(a) loans.l Pursuant to this authorization, SBA eliminated guaranty fees charged
          to borrowers and increased the maximum loan guaranty percentage, but did not reduce or
          eliminate the ongoing yearly servicing fee charged to lenders. The Recovery Act, and
          Office of Management and Budget guidance, encouraged Offices ofInspectors General
          (OIGs) to conduct oversight of potential risks posed by Recovery Act programs
          implemented by their respective agencies. Accordingly, we conducted this audit due to
          concerns that (1) lenders would not exercise due diligence in originating and closing
          loans given the 90 percent SBA guaranty reduced lender risk, and (2) the SBA would not
          properly underwrite loans given the higher loan demand and resource constraints.

          The audit objectives were to (1) determine if7(a) Recovery Act loans approved for more
          than $150,000 were originated and closed in accordance with SBA's policies and
          procedures and prudent lending practices, and (2) identify any evidence of suspicious
          activity. While the audit did not include an objective to assess actions taken by the SBA
          to mitigate the above mentioned risks, as part of our general oversight of the SBA's
          implementation of the Recovery Act, we reviewed SBA's Risk Mitigation Plans for


          1   The maximum guaranty for SBAExpress loans remained at 50 percent.
                                                                                                                              2


its Recovery Act programs. To assess the internal controls relevant to our objectives,
we reviewed SBA's Standard Operating Procedures (SOP) 50 10 5(A) and 50 10 5(B).

To answer the audit objectives, we randomly selected and reviewed sixty 7(a) Recovery
Act loans that (1) were approved for more than $150,000; (2) were made between
June 1,2009 and January 31,2010; and (3) had at least one disbursement as of
January 31,2010. A total of6,467 loans with gross loan approvals totaling
approximately $3.9 billion met the three sample criteria. Our sample included 30
randomly selected loans for which the SBA reviewed the underwriting and 30 randomly
selected loans made by lenders with delegated authority for which the SBA did not
review the underwriting. As of January 31, 2011, fifty-eight, or 97 percent of the 60
sampled loans reviewed had been fully disbursed. See Appendix I for further details on
our sampling methodology, Appendices II and III for the lists of sampled loans, and
Appendix IV for a summary of loan deficiencies.

The majority of the audit fieldwork was performed by RER Solutions, Inc. (RER) under a
contract with the SBA OIG. Fieldwork was conducted from May 2010 to May 2011, in
accordance with Government Auditing Standards prescribed by the Comptroller General
of the United States. Competing audit priorities and resource constraints delayed
progress on this audit. RER reviewed SBA and lender loan files using an OIG-approved
checklist. For all loans examined, RER also reviewed information in SBA's Loan
Accounting System.

RESULTS IN BRIEF

Documentation deficiencies 2 identified in twenty-four, or 40 percent, of the sixty 7(a)
loans reviewed, resulted in inappropriate or unsupported loan approvals of approximately
$14.2 million. The documentation in the loan files was inadequate to ensure the loans:
    • 	 were made to creditworthy borrowers,
    • 	 met SBA's eligibility criteria, and/or
    • 	 had adequate evidence of equity inj ection, use of proceeds, or Internal Revenue
        Service (IRS) verification.

Of the 24 deficient loans, 14 were lender-approved with inappropriate or unsupported
loan approvals totaling $6.9 million and 10 were SBA-approved with inappropriate or
unsupported loan approvals totaling $7.3 million. As of March 31, 2011, one of these 24
loans exhibited signs of early repayment problems. Suspicious activity was identified in
one loan, which was referred to our Investigations Division for further review.
Furthermore, problems with a lender's verification of equity injection and a missing
gasoline supply agreement were identified on a loan that was not part of the random
sample but was reviewed inadvertently by the OIG's contractor.

The results of the randomly selected and statistically valid samples were projected onto
the universe of6,467 7(a) Recovery Act loans with gross loan approvals totaling
approximately $3.9 billion. Based on the sample results, we estimate that at least 1,996

2   For purposes of this report, documentation deficiencies are defined as those which resulted in improper loan approvals.
                                                                                                                                            3

of the loans in the universe were not originated and closed in compliance with SBA's
policies and procedures, resulting in at least $869.5 million in inappropriate or
unsupported loan approvals. Of the 1,996 loans, we estimate that at least 1,351 were
lender-approved with inappropriate or unsupported approvals totaling at least an
approximate $424.7 million, and at least 403 were SBA-approved with inappropriate or
unsupported approvals totaling at least an approximate $214.4 million. 3 While the actual
financial impact of our estimated projections cannot be determined because the audit
focused on loan approvals as opposed to loan defaults, the deficiencies identified in 15 of
the 24 loans pose an approximate $5 million risk ofloss to the SBA (see Appendix V).
Furthermore, the missing gasoline supply agreement on the one loan inadvertently
reviewed by the OIG's contractor, poses an additional $115,063 risk ofloss to the SBA if
the borrower defaults on the loan.

In order to address the loan deficiencies, we recommended that the SBA flag in its Loan
Accounting System the 10 lender-approved loans that pose an approximate $3 million
risk of loss to the SBA. This will ensure the deficiencies are properly addressed should
the loans default and be submitted for purchase. We also recommended that the SBA
notify the OIG of any denials, repairs, withdrawals, or cancellations of SBA' s guaranties
made as a result of the deficiencies identified during purchase review. Additionally, to
prevent the occurrence of similar deficiencies in other SBA-approved 7(a) loans,
we recommended that the SBA determine how the deficiencies in the 10 SBA-approved
loans occurred and take corrective action. Deficiencies on five of these loans pose an
approximate $2 million risk of loss to the SBA.

To ensure appropriate estimation of improper payments in the 7(a) loan program, we
recommended that the SBA notify the improper payment review team of the high rate of
improper 7(a) loan guaranties identified during this audit.

The projected volume of inappropriate or unsupported loan approvals demonstrates the
inherent risk of these loans and the importance of careful review by the SBA during
purchase review. Therefore, the SBA needs to notify the National Guaranty Purchase
Center (NGPC) of the high number of deficiencies identified. This will ensure the NGPC
is prepared to thoroughly review Recovery Act loans that default for compliance with the
SBA's requirements (particularly in the areas of creditworthiness, eligibility, use of
proceeds, equity injection, and IRS tax verification).

Finally, we recommended that the SBA flag the additional non-sampled loan that we
identified with deficiencies that pose a $115,063 risk ofloss to the SBA to ensure that the
deficiencies are properly addressed if the loan defaults and is submitted for purchase.
Further, for this loan, we recommended that the SBA notify the OIG of any denial, repair,
withdrawal or cancellation of SBA' s guaranty made as a result of the deficiencies


3    To be conservative in our projections, we are using lower-limit projections rather than point estimate projections. The precision of
    the statistics from which our projections were derived is specific to each individual stratum from which we sampled (lender­
    approved vs. SBA-approved loans). As a result, when summed, the lower-limit projections of 1,351 lender-approved loans and 403
    SBA-approved loans and their associated dollar values will not equal the overall projection of 1,996 loans with $869.5 million in
    loan approvals. See projection calculations in Appendix 1.
                                                                                                 4


identified during the purchase review. The SBA fully agreed or partially agreed with all
of the recommendations and proposed actions that were generally responsive.

BACKGROUND

The SBA implemented the fee elimination provision of the Recovery Act for loans
approved on or after February 17, 2009 and implemented the increased guaranty
percentage provision for eligible 7(a) loans approved on or after March 16, 2009.
While these Recovery Act provisions were available until September 30,2010, the
funding provided by the Act was only sufficient to allow the SBA to eliminate the
borrower fees and provide increased guaranties through November 2009. The President
signed the Department of Defense Appropriations Act on December 19, 2009, which
provided an additional $125 million for fee eliminations and increased guaranties until
February 28,2010.

The SBA is authorized under Section 7(a) of the Small Business Act to provide financial
assistance to small businesses in the form of Government-guaranteed loans. The SBA's
7(a) loans are made by participating lenders under an agreement to originate, service, and
liquidate loans in accordance with SBA's rules and regulations and prudent lending
standards. Some 7(a) loans are made by lenders using delegated authority, which
undergo very limited review by SBA prior to loan disbursement, and others are subject to
more extensive underwriting and eligibility review and approval by the SBA. The SBA
is released from liability on the guaranty, in whole or in part, if the lender fails to comply
materially with any SBA loan program requirement or does not make, close, service or
liquidate the loan in a prudent manner.

In compliance with the Improper Payments Information Act of2002 (the Act), the SBA
was required to review all programs and activities for fiscal years 2009 and 2010 to
determine whether they were susceptible to significant improper payments. For such
programs, the SBA was required to produce an estimate of the annual amount of
improper payments and submit those estimates to Congress. The Act defines an improper
payment as any payment that should not have been made or that was made in an incorrect
amount, including any payment to an ineligible recipient or for an ineligible service.
The Act also defines a payment as any payment or commitment for future payment of
Federal funds, including a loan guaranty that is made by a Federal agency. The Improper
Payments Elimination and Recovery Act of2010, requires similar reviews and
estimations for future fiscal years. When a loan is made and an origination or closing
deficiency is identified that cannot be corrected, an improper loan approval has occurred.
When a loan defaults and a deficiency has been identified, the SBA needs to determine
whether the deficiency can be corrected before paying the guaranty. If the lender or SBA
cannot correct the deficiency, and the guaranty is paid; an improper purchase has
occurred.
                                                                                               5

RESULTS

Origination and Closing Deficiencies in Forty Percent of Loans Reviewed

Origination and closing deficiencies were identified in twenty-four, or 40 percent of the
sixty loans reviewed which resulted in inappropriate or unsupported loan approvals of
approximately $14.2 million. Of the 24 loans, 14 with inappropriate or unsupported
approvals of approximately $6.9 million were lender-approved and 10 with inappropriate
or unsupported approvals of approximately $7.3 million were SBA-approved. 4 As
shown in Table 1 below, the majority of the deficiencies identified in the 24 loans
involved inadequate support to demonstrate borrower creditworthiness and eligibility.
Further, some loans did not have adequate support for the use of proceeds, equity
injections, and IRS tax verifications. As of March 31, 2011, one of these 24 loans
exhibited signs of early repayment problems.

The results of the randomly selected and statistically valid samples were projected onto
the universe of6,467 7(a) Recovery Act loans with gross loan approvals totaling
approximately $3.9 billion. These loans were (1) approved for more than $150,000
between June 1,2009 and January 31,2010, and (2) had at least one disbursement as of
January 31,2010. Based on the sample results, we estimate that at least 1,996 of the
loans in the universe were not originated and closed in compliance with SBA's policies
and procedures, resulting in at least $869.5 million in inappropriate or unsupported loan
approvals. Of the 1,996 loans, we estimate that at least 1,351 were lender-approved with
inappropriate or unsupported approvals totaling at least an approximate $424.7 million,
and at least 403 were SBA-approved with inappropriate or unsupported approvals
totaling at least an approximate $214.4 million.

It is possible that lenders may be able to locate documentation to cure the deficiencies
that were noted on some of the loans at issue. Furthermore, the actual financial impact of
our estimated projections cannot be determined because the audit focused on loan
approvals as opposed to loan defaults. As of June 14, 2011, the initial disbursements on
nearly all 24 Recovery Act loans with identified deficiencies were made more than 18
months prior and only one showed indications of early repayment problems. As a result,
with the exception of the one early problem loan, even if these loans default, they will not
be reviewed for compliance with creditworthiness, equity injection, and IRS tax
verification requirements during the SBA's purchase reviews. Therefore, the deficiencies
in these areas will not be considered to have resulted in a loss to the SBA upon purchase.
Nevertheless, the 1 early-problem lender-approved loan and 14 other loans (9 lender­
approved and 5 SBA-approved) with eligibility and use of proceeds deficiencies, pose an
approximate $5 million risk of loss to the SBA. Finally, the missing gasoline supply
agreement on the one loan inadvertently reviewed by the OIG's contractor, poses an
approximate $115,063 risk ofloss to the SBA if the borrower defaults on the loan. See
Appendix V for a listing of the loans that present a risk of loss to SBA. Our sampling
methodology and projections are provided in Appendix I, a listing of the sampled loans is


4   These 24 loans have SBA guaranties totaling approximately $1l.5 million.
                                                                                                                   6


provided in Appendices II and III, and a summary of the loan deficiencies is provided in
Appendix IV.

                             Table 1. Material Deficiencies Noted in 24 Loans

                    Number
                                                                                                    Amounts
 Deficiency            of                                                          Number of
                                               Description of Deficiency                           allocated to
   Type             deficient                                                     deficiencies *
                                                                                                   deficiency **
                     loans*
                                   Repayment ability not adequately supported           9
   Credit­
                        12         Missing or incomplete financial statements           5           $7,770,381
  worthiness
                                   Missing or unsupported projections                   7
                                   Lack of required borrower certifications             5
                                   Affiliates not disclosed                             2
                                   Loan exceeds SBA's maximum guaranty                  1
                                   Noncompliance with change of ownership
                                                                                        3
  Eligibility           10         requirements                                                     $2,598,454
                                   Noncompliance with environmental
                                                                                        1
                                   requirements
                                   Ineligible broker fee                                1
                                   Missing Form 912                                     1
                                   Unsupported disbursements                            2
                                   Noncompliance with debt financing
    Use of                                                                              2
                         7         requirements                                                     $1,594,123
   Proceeds
                                   Unsupported business use of credit card debt         2
                                   Missing Form 159                                     1
    Equity                         No verification of equity injection                  2
                         3                                                                          $455,000
   Injection                       No required standby agreement                        1
                                   No IRS verification of seller tax returns            2
  IRS Tax
                         5         No IRS verification of operating companies           2           $1,801,815
 Verification
                                   Inadequate follow-up with IRS                        1
   TOTAL                24                                                             50          $14,219,773
 Source: Lender and SBA loan files
 * Some loans had multiple deficiencies. 

 ** Dollar values are allocated to each deficiency and do not overlap. 


Creditworthiness Not Always Demonstrated

The audit determined that 12 loans approved for $9.5 million, which included 7 SBA­
approved and 5 lender-approved loans, did not demonstrate borrower creditworthiness.
In accordance with Title 13 CFR 120.150, applicants must be creditworthy and loans
must be so sound as to reasonably assure repayment considering past earnings, projected
cash flow, future prospects, the ability to repay the loan with earnings from the business,
and the effects of any affiliates. According to SOP 50 10 5(A) and 50 10 5(B), the cash
flow of the business is the primary source of repayment. Thus, if the lender's financial
analysis demonstrates that the business lacks reasonable assurance of repayment in a
timely manner from the cash flow of the business, the loan request must be declined. The
SOPs also state that repayment ability based on projections must be supported by
reasonable assumptions. Further, the SOPs state that all 7(a) loan applications must
include personal financial statements for all owners who have a 20 percent or more
                                                                                               7

interest, officers, and proposed guarantors, including spouses. Business financial
statements, including year-end balance sheets and profit and loss statements for the last
three years, as well as interim balance sheets and profit and loss statements are also
required. Additionally, financial statements from affiliates and subsidiaries must be
obtained.

The audit found that these 12 loans (1) did not demonstrate borrower repayment ability,
(2) had missing or incomplete financial statements, and/or (3) had missing or
unsupported cash flow projections. The following examples illustrate the deficiencies
identified in the 12 loans:

     • 	 A lender approved a $1,786,000 loan without obtaining required interim financial
         statements or projections for a borrower with negative credit indicators, making
         repayment ability questionable. Lenders also approved 2 other loans totaling
         $945,100 to borrowers who had historical negative debt service coverage, interim
         losses, and missing or speculative projections .

     • 	 The SBA approved a $900,000 loan to a borrower that had negative historical
         debt service coverage, an interim operating loss of$189,393, and highly
         speculative projections. Furthermore, repayment ability was questionable because
         SBA inappropriately added back officer compensation to the borrower's cash
         flow. Financial statements showed that the officers took an average of more than
         $500,000 of compensation during the previous 3 years. There was no evidence
         that the officers would not continue to take this level of compensation and there
         was no explanation why SBA added back the compensation. When the
         compensation add-back was removed, business cash flow was not sufficient to
         cover debt service.

Eligibility Support was Inadequate for Ten Loans Reviewed

The audit determined there was inadequate eligibility support for 10 loans approved for
$6.7 million due to (1) missing borrower certifications, (2) non-disclosure of affiliates,
(3) SBA's maximum guaranty amount being exceeded, (4) noncompliance with change
of ownership requirements, (5) noncompliance with environmental policies, (6) an
ineligible broker fee, and/or (7) a missing form 912.

The Recovery Act states "No loan guarantee may be made under this section for a loan to
any entity found, based on a determination by the Secretary of Homeland Security or the
Attorney General to have engaged in a pattern or practice of hiring, recruiting or referring
for a fee, for employment in the United States an alien knowing the person is an
unauthorized alien." The Recovery Act also prohibits the use of funds for a casino or
other gambling establishment, aquarium, zoo, golf course, or swimming pool. SBA
Policy Notice 5000-1098 requires borrowers and operating companies to provide
certifications that they have complied with these provisions of the Recovery Act.

As defined by SOP 50 10 5(A), affiliation exists when one individual or entity controls or
has the power to control another or a third party or parties controls or has the power to
                                                                                                 8

control both. The SBA considers factors such as ownership, management, previous
relationships with or ties to another entity, and contractual relationships when
determining whether affiliation exists. The SOP requires disclosure of all affiliates and a
determination of the effect any affiliates have on the size of the business in terms of
SBA's size standards and whether SBA's $1.5 million maximum guaranty limit that was
in place during the period of time covered by the audit has been exceeded. Under Title
13 CFR 120.150, the SBA is also required to consider the effect of any affiliates on the
ultimate repayment ability of the applicant.

For change of ownership transactions involving a close relationship between the buyer
and seller, SOP 50 10 5(B) requires an independent business valuation from a qualified
source. Additionally, SOP 50 10 5(A) states that the lender may finance a limited
amount of goodwill, but in no event may the amount of goodwill financed by an SBA­
guaranteed loan exceed 50 percent of the loan amount up to $250,000.

In accordance with SOP 50 10 5(B), a lender or its associates may not charge the
borrower any commitment, bonus, origination, broker, commission, referral or similar
fees. Lastly, SOP 50 10 5(A) requires that every proprietor, partner, officer, director,
and owner of 20 percent or more be of good character and complete SBA Form 912,
Statement of Personal History.

The following examples illustrate the deficiencies identified in the 10 loans:

   • 	 Lenders approved five loans totaling $3 million without the required immigration
       or restricted use borrower certifications.

   • 	 One lender approved a $1,786,000 loan that exceeded SBA's maximum guaranty
       amount by approximately $107,000 and when this loan and an affiliate loan are
       considered, SBA's maximum guaranty limit is exceeded by over $585,000. It
       was SBA's responsibility to determine if the loan exceeded SBA's maximum
       guaranty amount before it provided the lender with a loan number for this
       Preferred Lender Program (PLP) loan.

   • 	 The SBA and lenders approved three loans totaling $1.5 million that did not
       comply with change of ownership requirements because (1) there was no
       evidence that independent business valuations were obtained for transactions
       involving a close relationship between the buyer and seller, and (2) the amount of
       goodwill exceeded SBA policy limits.

Use of Proceeds Not Always Supported

The audit determined that the use of proceeds was not fully supported for 7 loans
approved for $6.1 million. In accordance with SOP 50 10 5(A), lenders must disburse the
loan proceeds in accordance with the loan authorization, document each disbursement,
and obtain evidence to support disbursements, such as cancelled checks or paid receipts.
When a lender uses loan proceeds to refinance its own debt, the SOP requires the lender
to provide transcripts and certify in writing that such debt is, and has been, current for the
                                                                                             9


last 36 months. Further, for credit card debt being refinanced with loan proceeds that is
in the name of the individual, SOP 50 10 5(B) requires lenders to document the business
purpose of the credit card debt and obtain a borrower certification that the loan proceeds
are being used for business related debt.

However, we found that lenders approved 5 loans and the SBA approved 2 loans that did
not contain adequate support for the use of proceeds. For example, one lender disbursed
a $1,165,000 loan, but there was no final closing statement in the file to determine how
the loan proceeds were used. Another lender disbursed $44,615 ofloan proceeds to
refinance credit card debt without adequate support for business use. Additionally, the
SBA allowed $603,500 ofloan proceeds to be used to refinance same institution debt
without the required support and allowed $60,000 in loan proceeds to be used to
refinance credit card debt without adequate support for business use.

Equity Injection Not Adequately Verified in Three Loans

The audit found that lenders approved 3 loans totaling $2 million without adequately
verifying the required equity injections. Lenders must verify equity injections prior to
disbursing loan proceeds to be in compliance with SOP 50 105 (A) and 50 10 5(B).
Verification of a cash inj ection requires documentation, such as a copy of a check along
with evidence, such as a recent bank statement, showing that the funds were deposited
into the borrower's account, or a copy of an escrow settlement statement accompanied by
a bank account statement showing that injection into the business was made prior to
disbursement. However, our review found that one lender approved a $1,165,000 loan
without adequately verifying the $395,000 required equity injection. Specifically, the
lender did not ensure that the borrower's personal $365,000 certificate of deposit was
liquidated and injected into the business as planned and did not verify the sources of the
remaining $30,000 of deposits made to the borrower's business account.

IRS Verification Not Adequately Performed for Five Loans

The audit determined that lenders approved 5 loans without evidence demonstrating that
IRS verification of financial information was adequately performed. With the exception
of start-up businesses, SOP 50 10 5(A) and 50 10 5(B) require lenders to verify the
financial information of borrowers, operating companies, and/or sellers of a business by
comparing IRS tax transcripts with the financial data or tax returns submitted with the
loan application. If the lender does not receive tax transcripts from the IRS within 10
business days of its request, the lender is required to follow-up with the IRS by
resubmitting its request and documenting the follow-up with a dated copy of the
submission. Nonetheless, our audit found that lenders approved 2 loans for $1.4 million
without evidence they verified the sellers' financial information, approved another 2
loans for $2.8 million without evidence they verified the operating companies' financial
information, and approved 1 loan for $705,000 without evidence they performed the
required follow-up with the IRS to verify the borrower's financial information.
                                                                                             10

Improper Payments Information Act of 2002

In accordance with the Act, if adequate support cannot be obtained to overcome the
identified deficiencies in the 15 loans which pose a risk of loss to SBA, in the event of
loan default, these improper loan guaranties should not be paid. If the SBA pays the
guaranties on these loans, the payments would be considered improper purchases.

Suspicious Activity

We identified suspicious activity in 1 of the 60 loans reviewed. This loan has been
referred to the OIG Investigations Division.

OTHER MATTER

Additional Loan Deficiency Identified - Allen Xpress Mart, Loan No.3 746145009

Due to a data error in SBA's Loan Accounting System, a loan was inadvertently
reviewed during the audit that was not properly part of the randomly selected sample
pools. An incorrect borrower name was recorded in SBA's Loan Accounting System for
one of the sampled loans and, due to miscommunication between the OIG's contractor
and the lender; the incorrect file was sent and reviewed. Although this error was detected
and the appropriate sample loan was eventually reviewed, the deficiencies identified on
this non-sample loan are being reported as an other matter so SBA can take appropriate
action.

For this $175,000 loan, we identified that the lender did not properly verify the $85,500
of equity injection and that there was no gasoline supply agreement in file as required.
As a result, we are recommending that the SBA flag this loan to ensure the deficiencies
are properly addressed if the loan defaults and is submitted for purchase.

CONCLUSION

Forty percent of the audited 7(a) Recovery Act loans approved for more than $150,000
were not originated and closed in accordance with SBA's policies and procedures,
resulting in an estimated $869.5 million in inappropriate or unsupported loan approvals.
The projected volume of inappropriate or unsupported loan approvals demonstrates the
inherent risk of these loans and the importance of careful review by the SBA during
purchase review. While the actual financial impact of our estimated projection cannot be
determined because the audit focused on loan approvals as opposed to loan defaults, the
deficiencies identified pose an approximate $5 million risk of loss to the SBA. Finally,
the eligibility deficiency identified on the one non-sampled loan poses an additional
$115,063 risk ofloss to the SBA. We provided a draft of this report to the SBA for
comment. The SBA fully agreed with three of the recommendations and partially agreed
with the two other recommendations. The actions proposed by the SBA were generally
responsive to the recommendations.
                                                                                              11


RECOMMENDATIONS

We recommend that the Director, Office of Financial Program Operations:

   1. 	 Flag the 10 lender-approved loans with identified deficiencies that pose an
        approximate $3 million risk ofloss to the SBA (see Table 1 in Appendix V) to
        ensure the deficiencies are properly addressed if the loans default and are
        submitted for purchase. Further, notify the OIG of any denials, repairs,
        withdrawals, or cancellations of SBA' s guaranties made as a result of the
        deficiencies identified during the purchase reviews.

   2. 	 Determine how the deficiencies in the 10 SBA-approved loans occurred and take
        corrective action to prevent the occurrence of similar deficiencies in other SBA­
        approved 7(a) loans. Deficiencies on five of these loans pose an approximate $2
        million risk ofloss to the SBA (see Table 2 in Appendix V).

   3. 	 Notify the improper payment review team of the high rate of improper 7(a) loan
        guaranties identified during this audit to ensure the proper estimation of improper
        payments in the 7(a) loan program.

   4. 	 Notify the National Guaranty Purchase Center of the high number of deficiencies
        identified and require the center to carefully review Recovery Act loans that
        default for compliance with SBA's requirements, (particularly in the areas of
        creditworthiness, eligibility, use of proceeds, equity injection, and IRS tax
        verification).

   5. 	 Flag the loan identified in the Other Matters section of the report to ensure the
        deficiencies are properly addressed if the loan defaults and is submitted for
        purchase. This loan poses an approximate $115,063 risk ofloss to the SBA.
        Further, for this loan, notify the OIG of any denial, repair, withdrawal, or
        cancellation of SBA' s guaranty made as a result of the deficiencies identified
        during the purchase review.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

On August 5, 2011, we provided a draft of the report to the SBA for comment. On
September 19, 2011, the SBA provided written comments, which are contained in their
entirety in Appendix VI. The SBA fully agreed or partially agreed with all of the
recommendations and proposed actions that were generally responsive to the
recommendations.

General Comments

The SBA acknowledged that our audit revealed documentation deficiencies on 24 of the
60 loans, but stated that most of these documentation deficiencies were non-material.
The SBA also stated that our report affirms that the creditworthiness, equity injection,
and IRS verification deficiencies cited in the report were not likely to be considered
                                                                                              12

material for the majority of the loans cited as most of the loans had already performed for
more than 18 months. The SBA stated that it had checked the current status of the 60
loans and confirmed that as of August 31, 2011, none of the loans had defaulted.
Therefore, the SBA concluded that the majority of the underwriting and closing
deficiencies noted by OIG are not material and will not result in a loss to SBA.

The SBA's comments about the materiality of the creditworthiness, equity injection and
IRS verification deficiencies do not adequately reflect the statements presented in our
report and indicate the SBA has missed the importance of our findings. Regardless of the
fact that most of the loans will not be reviewed for compliance with creditworthiness,
equity injection, and IRS verification requirements in the event of loan default and
guaranty purchase, lenders and the SBA originated and closed at least 1,996 loans
representing $869.5 million in inappropriate or unsupported loan approvals over an 8­
month period. This level of noncompliance is certainly material and raises questions
about the integrity of the program. While the loans in our sample have not yet defaulted,
others with similar deficiencies have defaulted. Therefore, management should be very
concerned about the risk presented by the high rate of noncompliance and take our
findings seriously rather than sending the message that noncompliance is acceptable as
long as the loans do not default early. The creditworthiness, equity injection, and IRS
verification deficiencies are also material to the agency's compliance with the Improper
Payment Act of2002. If they cannot be resolved, these loans must be reported as
improper loan guaranties in accordance with the Act.

The SBA stated that it considers the eligibility deficiencies identified on the lender­
approved loans to be program integrity issues. Therefore, the SBA stated it will attempt
to obtain documentation for the lenders to cure these deficiencies and will take
appropriate action, including reducing or canceling SBA's guaranty on loans where the
eligibility deficiencies cannot be cured.

Finally, at the time our draft report was issued, two of the loans with identified
deficiencies were delinquent. As SBA noted in their response, none of the loans
reviewed have defaulted. Nevertheless, one of these loans exhibited early repayment
problems and is considered an early problem loan. We have revised our report
accordingly to accurately reflect the status of the loans.

Recommendation 1

The SBA fully agreed with our recommendation and will attempt to obtain
documentation from the lenders to cure the deficiencies on the 10 lender-approved loans
posing a risk of loss to SBA. If the lenders are unable to overcome the deficiencies
related to the origination and closing of the loans, the SBA will flag those loans in the
chron system. Furthermore, for those loans with eligibility deficiencies, the SBA will
contact the lender and notify them that the guaranty will be reduced or terminated if they
are unable to overcome the deficiencies. Finally, the SBA will review the flagged loans
submitted for guaranty purchase and will notify the OIG of any denials, repairs,
withdrawals, or cancellations. The SBA's proposed actions are responsive to
recommendation 1.
                                                                                               13

Recommendation 2

The SBA fully agreed with our recommendation. The Citrus Heights 7(a) loan­
processing center will review the 10 SBA-approved loans to determine how the
deficiencies occurred. The SBA will flag the loans in the chron system to ensure the
deficiencies are addressed if the loans are submitted for guaranty purchase. Furthermore,
the SBA will incorporate feedback based on the identified deficiencies into its continuous
loan processing training in order to prevent the occurrence of similar deficiencies in other
SBA-approved 7(a) loans. The SBA's proposed actions are responsive to
recommendation 2.

Recommendation 3

The SBA will notify the team conducting improper payment reviews to use the findings
in this audit as training for individuals involved in subsequent improper payment reviews.
The SBA's proposed action is responsive to recommendation 3 in regards to future
improper payment reviews. However, the SBA was provided the preliminary results of
this audit, including the summary of loan deficiencies, in April 2011, prior to the start of
their FY 2011 improper payment reviews. Therefore, we expect that these results will
also be considered in the FY 2011 estimation of improper payments in the 7(a) loan
program.

Recommendation 4

The SBA will notify the National Guaranty Purchase Center of the findings in this audit
and will use the information to train center staff involved in the guaranty purchase
process for all loans, with special emphasis on Recovery Act loans. Furthermore, the
SBA will stress compliance with eligibility requirements and material compliance with
credit requirements. The SBA's proposed actions are responsive to recommendation 4 in
regards to notifying the Center of the high number of deficiencies, but are not responsive
in regards to requiring a careful review of Recovery Act loans for compliance with
origination and closing requirements.

Recommendation 5

The SBA fully agreed with our recommendation and flagged the loan in the chron system
to ensure the deficiencies are properly addressed if the loan defaults and is submitted for
guaranty purchase. Furthermore, the SBA provided a note in the chron system advising
the purchase center to provide notice on any denial, repair, withdrawal or cancellation of
guaranty resulting from the identified deficiencies to Office of Inspector General. The
actions taken by the SBA are responsive to recommendation 5.
                                                                                           14

ACTIONS REQUIRED

Please provide your management response for each recommendation on SBA Forms
1824, Recommendation Action Sheet, within 30 days from the date of this report. Your
responses should identify the specific actions taken or planned to fully address each
recommendation and the target dates for completion.

We appreciate the courtesies and cooperation of the Office of Capital Access during this
audit. If you have any questions concerning this report, please call me at 202-205-7390
or Terry Settle, Director, Credit Programs Group at 703-487-9940.
                                                                                                                                        15


APPENDIX I. SAMPLING METHODOLOGY AND PROJECTIONS

The universe consisted of 6,467 7(a) Recovery Act loans approved for greater than
$150,000 that were made between June 1,2009 and January 31,2010, with at least one
disbursement as of January 31, 2010. The universe was broken into two strata - one with
2,141 SBA approved 7(a) Recovery Act loans totaling $1,421,131,346 and another with
4,326 Lender approved 7(a) Recovery Act loans totaling $2,512,472,514. Upon
consultation with a statistician, we used Interactive Data Extraction and Analysis
Software (IDEA) to randomly select 30 loans from each stratum for a total sample size of
60 loans.

In statistical sampling, the projected population estimates are subject to sampling error.
Sampling error is a measure of the expected difference between the value found in the
sample and the value of the same characteristics that would have been found if a 100
percent review had been completed using the same techniques. Sampling error is
indicated by ranges, or confidence intervals, that have upper and lower limits and a
certain confidence level. Calculating at a 90 percent confidence level means the chances
are 9 out of 10 that, if we reviewed all of the loans in the total population, the resulting
values would be between the lower and upper limits, with the population point estimate
being the most likely outcome.

In consultation with a statistician, the following projections based on a stratified random
sample design calculate the precision statistics at a 90 percent confidence level. 5
Projecting our sample results to the universe of6,467 7(a) Recovery Act loans with gross
loan approvals totaling approximately $3.9 billion, we estimate that at least 1,996 7(a)
Recovery Act loans approved for greater than $150,000 made between June 1,2009 and
January 31,2010 with at least one disbursement as of January 31,2010, were not
originated and closed in compliance with SBA's policies and procedures, resulting in at
least an approximate $869.5 million in inappropriate or unsupported loan approvals.

As the tables below will illustrate, we estimated that at least 1,351 lender-approved loans
were not originated and closed in compliance with SBA's policies totaling at least an
approximate $424.7 million. In addition, we estimated at least 403 SBA-approved loans
with the same distinction of noncompliance totaling at least an approximate $214.4
million. 6




5   Calculations were performed using Stata v.ll, a professional standard statistical software program.
6	  The estimates reported in this paragraph are the lower bounds of symmetric confidence intervals at a 90 percent confidence. The
    interpretation is that there is only a 5 percent chance that the true population statistic is less than the reported lower bound.
                                                                                                                           16


                                    Table 1: Projected Error Counts by Strata 7

                                      Projected Error                                     Lower Limit   Upper Limit
                Strata                                            Standard Error
                                            (ount                                          (90%(1)           (90%(1)
       SBA-Approved                                   713.7                     186.1           402.6           1,024.7
       Le nde r-Approved                            2,018.8                     399.4         1,351.2           2,686.4
      Total                                         2,732.5                     440.6         1,996.0           3,469.0

The lower and upper limits of a point estimate are driven by the sampling design used for
selecting the sample, which in turn dictates the calculation of the precision statistics.
Specifically, the precision statistics of each stratum result from the values of its
population and sample size, along with its sample average and standard deviation of the
attribute of interest. Since the precision statistics are stratum specific, the ability to
perform a straightforward summation across stratum is inappropriate.

                                    Table 2: Projected Deficiency Amounts per Strata8

                                     Projected                                          Lower Limit         Upper Limit
            Strata                                             Standard Error
                              Deficiency Amount                                          (90%(1)             (90%(1)
    SBA-Approved$                                523,011   $           184,602 $             214,438    $        831,583
Lender-Approved $                                993,722   $           340,400 $             424,725    $      1,562,718
Total           $                           1,516,732      $           387,234 $             869,450    $      2,164,014




7   Figures rounded to the nearest tenth.
8   Figures expressed in thousands of dollars.
                                                                                                                     17

APPENDIX II: SAMPLED LENDER-APPROVED LOANS AND DEFICIENCIES
                                             Deficiency
        Loan                                                                                            Approved      Deficiency
#                     Borrower Name          Type (See             Deficiency Description
       Number                                                                                            Amount       Amount"
                                              Le~end)
                    Tropical Smoothie
 1    3760655005
                    Cafe
                                                 -                                                      $265,000            $0

2     3725425000    Koper Enterprises, Inc       -                                                      $362,100            $0

3     3715035008    Alameda Company              -                                                      $1,540,000          $0

4     3708545010    ING Wireless                 -                                                      $200,000            $0
                    Ligia I. Morrison,
5     3844955009
                    DDS
                                                 -                                                      $455,000            $0

                                                          (A) No restricted use or immigration
                                                          certifications, (C) Questionable
                    [FOIA ex. 4]                          repayment ability due to excluded fee that
6    [FOIA ex. 4]                              A,C,E                                                    $227,800          $227,800
                                                          significantly impacts debt service
                                                          coverage when included in analysis, (E)
                                                          No IRS verification of seller tax returns
                                                          (B) Unable to verify use of proceeds
                                                          because there was no final closing
                                                          statement in file, (D) Unable to verifY
                    L Petro 34th Street
7     3670895003                               B,D,E      equity injection because there was no         $1,165,000    $1,165,000
                    Mobile
                                                          final closing statement in file, (E)
                                                          Inadequate IRS verification of seller tax
                                                          returns.
                    Vanguard                              (B) Missing Form 159 for a $2,400
8     3761855008                                 B                                                      $531,000           $2,400
                    International Cinema                  packaging fee.
                    Infinite Learning
9     3663655003
                    Academy
                                                 -                                                      $185,000            $0

10    3652265009    YongJa Hong                  -                                                      $600,000            $0

                                                          (A) Goodwill amount exceeded SBA
                    Brainy Bunch
11    3672595000                                A,D       policy limits, (D) Third party equity         $647,000          $647,000
                    Learning Center
                                                          injection not verified
                    Meticulous                            (A) No restricted use or immigration
12    3645065010                                 A                                                      $600,000          $90,000
                    Manufacturing, Inc                    certifications
                                                          (A) Missing inunigration certification,
     [FOIA ex. 3,                                         Affiliates were not disclosed and
13                  [FOIA ex. 3,4]              A,C       therefore, repayment ability could not be     $168,500          $168,500
              4]                                          determined, (C) No Financial Statements
                                                          from Corporate Guarantor
14    3722245010    Occidental Benefits          -                                                      $516,000            $0

15    3784250007    Ascendent ID Inc             -                                                      $319,000            $0
                    Matawan Enterprises,
16    3640705002
                    LLC
                                                 -                                                      $270,000            $0
                                                          (B) $63,608 in use of proceeds
                                                          unsupported including $25,000 that was
                    Internal Medicine and                 disbursed directly to the borrowers for
17    3607165004                                 B                                                      $350,000          $63,608
                    Family Practice                       equipment purchases and $38,608 that
                                                          was disbursed as working capital when it
                                                          was for a debt refinance.

     [FOIAex.4,                                           (C) Negative debt service coverage for
18                  [FOIA ex. 4, 6]              C        prior year, current interim loss, and no      $445,100          $445,100
            6]                                            projections
                    2792 Ocean Realty
19    3630155010
                    LLC
                                                 -                                                      $788,300            $0

                    Progressive '2000'                    (E) No copies of tax Returns or IRS
20    3692825005                                 E                                                      $1,000,000    $1,000,000
                    Home Health                           Verification for OC

                                                          (A) Ineligible broker fee of$2,500, No
21    3834645006    Innovative Finishers        A,D       restricted use certification, (D) No seller   $225,000          $46,250
                                                          standby agreement in file - $10,000
                                                                                                                                18 

                                                     Deficiency
              Loan                                                                                                Approved        Deficiency
    #                         Borrower Name          Type (See               Deficiency Description
             Number                                                                                                Amount         Amount"
                                                      Legend)
                                                                    (A) Loan exceeded SBA's maximum
                                                                    guaranty amount and further exceeded
                                                                    SBA's guaranty limit when an affiliate
                                                                    loan is considered, Missing form 912
                                                                    from Principal, No restricted use
                                                                    certification, (B) Missing required
   22     [FOIA ex. 4] [FOIA ex. 4]                   A,B,C,E
                                                                    support for $50,000 debt refinance, (C)
                                                                                                                  $1,786,000      $1,786,000
                                                                    Repayment ability questionable ­ no
                                                                    interim financial statements or
                                                                    projections and negative credit indicators,
                                                                    (E) No evidence ofIRS verification for
                                                                    Operating Companies
                                                                    (B) Business use of credit card debt was
   23      3781515008      Fina Mart                      B                                                        $641,500        $44,615
                                                                    not adequately supported
   24      3747715005      TTS Granite Inc                -                                                        $870,000            0
                           Gina White Byrd &
   25      3721175000
                           Roger L. Byr
                                                          -                                                        $450,000            $0

   26      3486065001      Dairy Queen                    -                                                        $170,000            $0

   27      3466985009      Sam An's Corporation           -                                                        $507,000            $0

                                                                    (C) ) Negative debt service coverage for
   28    [FOIA ex. 4]       [FOIA ex. 4]                  C         prior year and interim period and              $500,000       $500,000
                                                                    speculative projections
                                                                    (E) Inadequate follow-up with IRS to
                           Dynamic Turbine,
   29      3472555005                                     E         complete verification of financial             $705,000       $705,000
                           LLC
                                                                    information
   30      3669955000      Bhikhabhai V. Patel            -                                                        $857,000            $0

              Totals                                                                                              $17,346,300     $6,891,273
*Deficlency amount was calculated by allocatmg the loan approval amounts to specific Identified deficiencies.

Deficiency Type Legend:

A. Eligibility
B. Use of Proceeds
C. Creditworthiness
D. Equity Injection
E. IRS Verification
                                                                                                                 19

APPENDIX III: SAMPLED SBA-APPROVED LOANS AND DEFICIENCIES

                                                  Deficiency
                                                                                                    Approved          Deficiency
  #     Loan Number        Borrower Name          Type (See         Deficiency Description
                                                                                                     Amount           Amount"
                                                   Legend)
                         The Homeland
  1      3827345001
                         Company
                                                      -                                             $402,000             $0
                         Ramada Inn Warner
  2      3530285006
                         Robins
                                                      -                                             $1,709,000           $0
                                                               (A) Some affiliates were not
                                                               disclosed (C) Operating
                                                               Company was not a co-borrower
                                                               as required and cash flow
                                                               projections were not adequately
  3    [FOIA ex. 3,4]     [FOIA ex. 3,4]             A,C                                            $760,000          $760,000
                                                               supported - Borrower was not
                                                               State licensed or
                                                               Medicare/Medicaid certified yet
                                                               projections assumed all patients
                                                               were Medicare recipients.
                                                               (B) Business use of credit card
  4    [FOIA ex. 4, 6]   [FOIA ex. 4, 6]              B
                                                               debt not adequately supported.
                                                                                                    $280,000           $60,000

  5      3693565001      Pro Nails & Spa              -                                             $1,427,000           $0
                                                               (C) More than 90% of revenue
                                                               derived from Federal contracts
                                                               with no progress report or
  6    [FOIA ex. 4]      [FOIA ex. 4]                 C
                                                               projections in file and no
                                                                                                    $293,000          $293,000
                                                               discussion of the contract terms
                                                               or renewals.
                         Pineapple Technology,
  7      3556005001
                         Inc
                                                      -                                             $275,000             $0

  8      3567575003      Sports Clips                 -                                             $220,000             $0

  9      3463945002      Jimmy John's                 -                                             $425,000             $0


  10     3546245010      The Elk Stop                 -                                             $445,700             $0

  11     3753625009      Melton Poultry Farm          -                                             $815,000             $0
                         Image Dentistry of
  12     3695175006
                         Glendale
                                                      -                                             $531,500             $0

  13     3472645008      J&S Transport, Co, Inc       -                                             $900,000             $0

  14     3734795008      Dickey's Barbeque Pit        -                                             $356,500             $0
                                                               (C) Repayment ability was
                                                               questionable. It was calculated
                                                               using old financial information.
                                                               Further, the purpose of the loan
  15    [FOIA ex. 4]     [FOIA ex. 4]                 C        was to refinance debt but there      $576,500          $576,500
                                                               were no current financial
                                                               statements from the EPC in the
                                                               file and not all debts were
                                                               disclosed.
                                                               (C) Repayment ability was
                                                               questionable because there were
                                                               no current financial statements
                                                               from the affiliates to verify the
  16   [FOIA ex. 4, 6]   [FOIA ex. 4, 6]              C
                                                               lender's cash flow analysis and
                                                                                                    $500,000          $500,000
                                                               SBA's analysis was unsupported
                                                               and appeared to be unrelated to
                                                               this loan.
                                                               (A) No independent business
                                                               valuation as required for this non
                         U.S. Tower Services,                  arm's-length change of
  17     3779635010                                   A                                             $450,000          $450,000
                         Inc                                   ownership transaction.
                                                                                                                                   20 

                                                                Deficiency
                                                                                                                     Approved             Deficiency
     #          Loan Number            Borrower Name            Type (See           Deficiency Description
                                                                                                                      Amount              Amount"
                                                                 Le~end)

    18           3520185007         Kidzone, Inc                     -                                                $450,000               $0

    19           3679305008         Nurture Spa, LLC                 -                                                $300,000               $0
                                                                               (A) No evidence of required
                                                                               environmental investigation,(B)
    20         [FOIA ex. 4]         [FOIA ex. 4]                  A,B,C        Noncompliance with debt               $1,390,000           $1,390,000
                                                                               refinance requirements, (C)
                                                                               Unsupported projections.
                                                                               (A) No independent business
                                                                               valuation as required for this non
                                    All About Kids Day
    21           3754435002                                         A          arm's-length change of                 $400,000            $400,000
                                    Care
                                                                               ownership transaction and no
                                                                               evidence of site visit as required.
                                    JS-Bell Enterprises,
    22           3772745005
                                    LLC
                                                                     -                                                $270,000               $0

    23           3536955007         Proedge, Inc                     -                                                $877,500               $0
                                                                               (C) No interim financial
                                                                               statements in file and therefore,
    24          [FOIA ex. 4]        [FOIA ex. 4]                    C
                                                                               repayment ability is
                                                                                                                     $1,999,000           $1,999,000
                                                                               questionable.
                                    The Healey Werks,
    25           3575815003
                                    LLC
                                                                     -                                                $656,900               $0

    26           3634985009         Rabey Electric Co, Inc           -                                                $763,000               $0
                                    United Colors of
    27           3552725008
                                    Benetton
                                                                     -                                                $330,000               $0
                                    WCP, Inc/West Coast
    28           3629445006
                                    Vinyl
                                                                     -                                               $1,000,000              $0
                                                                               (C) Negative historical debt
                                                                               service coverage, interim
                                                                               operating loss, highly speculative
    29          [FOIA ex. 4]         [FOIA ex. 4]                   C          projections. Further, SBA              $900,000            $900,000
                                                                               inappropriately added back
                                                                               officer compensation to
                                                                               demonstrate repayment ability.
                                    Big Fish
    30           3695625010
                                    Entertainment, LLC
                                                                     -                                                $341,700               $0


                      Totals                                                                                         $20,044,300          $7,328,500

*Deficlency amount was calculated by allocatmg the loan approval amounts to specific Identified deficiencies.

Deficiency Type Legend:

A. Eligibility
B. Use of Proceeds
C. Creditworthiness
                                                                                              21


APPENDIX IV: SUMMARY OF LOAN DEFICIENCIES

[FOIA ex. 4]                                         Loan Number [FOIA ex. 4]

We questioned the entire loan approval amount of $227,800 because (1) there were no
restricted use or immigration certifications in the file, (2) repayment ability was
questionable, and (3) there was no IRS verification of the seller's financial information.
The seller's interim income statement showed a $32,000 management fee which the
lender added back to cash flow to demonstrate repayment ability. This fee, however, also
appeared on the seller's previous income statements and the lender provided no
explanation of the fee and why it would not continue to be incurred by the borrower. If
the fee had not been added back, cash flow would not have been sufficient to cover debt
service. Additionally, since this was a change of ownership transaction, seller tax returns
were required. In this case, there were no tax returns in the file or evidence of IRS
verification. As a result, the accuracy of the seller's financial information could not be
verified and should not have been relied upon for loan approval.

L Petro 34th Street Mobile                           Loan Number 3670895003

We questioned the entire loan approval amount of $1,165,000 because (1) the use of
proceeds were not supported, (2) the equity injection was not verified, and (3)
verification of the seller's financial information was inadequate. Although the lender
signed the SBA Settlement Sheet on October 7,2009, the loan did not actually close until
October 22, 2009. Furthermore, there was no final closing statement in the loan file. As
a result, we could not determine if the loan proceeds were disbursed in accordance with
the loan authorization or if the required equity was injected into the business.
Additionally, since this was a change of ownership transaction, IRS verification of the
seller's financial information was required. In this case, the IRS reported "Record Not
Found" for two of the three years in question. According to SOP 50 10 5(A), the lender
was required to report this issue to the appropriate SBA Commercial Loan Servicing
Center and cancel the loan or postpone closing until the issue was resolved. There was
no evidence this was done.

Vanguard International Cinema                        Loan Number 3761855008

The SBA requires completion of Form 159 if a packager or referral agent was used or the
lender charged a fee associated with the application. The form is important as it
documents the lender's certification that: (1) the services rendered and amounts charged
are reasonable and satisfactory; (2) they have no knowledge that any other agent was
engaged by, represented, or worked on behalf of the applicant other than in another
executed compensation agreement; and (3) referral fees were not charged directly or
indirectly to the applicant. Since there was no SBA Form 159 in file for a $2,400
packaging fee, we questioned this amount.
                                                                                                                                         22


Brainy Bunch Learning Center 	                                                   Loan Number 3672595000

We questioned the entire loan approval amount of $647,000 because (1) goodwill
exceeded SBA policy limits, and (2) the lender did not verify the third-party equity
injection. The lender approved the loan on September 29, 2009 and pursuant to
SOP 50 10 5(A), while a lender may finance a limited amount of goodwill, in no event
may the amount of goodwill financed by an SBA-guaranteed loan exceed 50 percent of
the loan amount up to a maximum of$250,000. In this case, the amount of goodwill was
$446,000, or 69 percent of the loan amount. Additionally, the lender did not verify that
$50,000 of equity injection provided by the principal's mother was actually deposited
into the business as required.

Meticulous Manufacturing, Inc. 	                                                 Loan Number 3645065010

To qualify for the 90 percent guaranty under the Recovery Act, lenders were required to
obtain restricted use and immigration certifications. In this case, there were no restricted
use or immigration certifications in file. As a result, we calculated the deficiency at
$90,000. 9

[FOIA ex. 3,4] 	                                                                 Loan Number [FOIA ex. 3,4]

We questioned the entire loan approval amount of$168,500 because (1) the loan file did
not contain the borrower's immigration certification, (2) not all affiliates were disclosed,
and (3) there were no financial statements from the affiliates. Although the lender
reported that there were no affiliates on the Eligibility Checklist, the principal's most
recent Federal tax return showed                         [FOIA ex. 3]
State of Florida records showed that the principal was a Director of this company. The
file also showed that the principal was Vice President of Zaknoun II, the entity that
guaranteed the loan. Since no affiliate financial statements were provided, we could not
determine what effect the affiliates had on repayment ability.

Internal Medicine and Family Practice                                            Loan Number 3607165004

We questioned $63,608 of the $350,000 loan approval due to the misuse of proceeds.
The lender disbursed $25,000 directly to the borrower for equipment purchases without
obtaining paid receipts of invoices to support the purchases. Additionally, the lender
disbursed $38,608 to refinance the principal's home equity line of credit (HELOC)
without evidence it was used for business purposes.

[FOIA ex. 4, 6] 	                                                                Loan Number [FOIA ex. 4, 6]

We questioned the entire loan approval amount of$445,100 because repayment ability
was not supported. The borrower's debt service coverage was negative for the year
preceding the loan, the current period showed an operating loss, and no projections and

9 	The   deficiency was calculated at 15 percent of the $600,000 loan amount. Fifteen percent is the difference between the 90 percent
 guaranty allowed under the Recovery Act and SBA's standard guaranty of75 percent.
                                                                                                                                      23


assumptions were provided to support how the borrower's historical performance would
change to ensure repayment ability. Historically, the principal took large distributions
which negatively impacted cash flow and there was no assurance he would discontinue
doing so.

Progressive '2000' Home Health                                              Loan Number 3692825005

We questioned the entire loan approval amount of$I,OOO,OOO because there were no
Federal tax returns for the operating company in file and there was no evidence that the
lender conducted the IRS verification. While the lender cited the operating company's
Federal tax returns in its credit memo, the returns were not in file and there was no
evidence that the lender verified the returns with the IRS as required. As a result, the
financial information should not have been relied upon for loan approval.

Innovative Finishers                                                        Loan Number 3834645006

We questioned $46,250 of the $225,000 loan approval amount because (1) there was no
restricted use certification in file, (2) the borrower was charged an ineligible broker fee,
and (3) there was no seller standby agreement in file. To qualify for the 90 percent
guaranty under the Recovery Act, the lender was required to obtain a restricted use
certification from the borrower. In this case, there was no certification in file and
therefore, we questioned $33,750. 10 Additionally, the file contained an SBA Form 159
which showed that the borrower paid a $2,500 broker fee for the loan referral. Because
SOP 50 10 5(B) and Title 13 CFR 120.222 specifically prohibit these fees, we questioned
$2,500. Lastly, while the loan authorization called for a $10,000 seller standby
agreement, there was none in file and therefore, we questioned $10,000. In all, these
three deficiencies totaled $46,250.

[FOIA ex. 4]                                                                Loan Number [FOIA ex. 4]

We questioned the entire loan approval amount of $1,786,000 because (1) the loan
exceeded SBA's maximum guaranty amount and the guaranty limit was further exceeded
when an existing SBA loan to an affiliate was considered, (2) there was no restricted use
certification in file, (3) an SBA Form 912 was missing from the file, (4) $50,000 of debt
refinancing was not supported, (5) repayment ability was questionable, and (6) there was
no evidence of IRS verification for the operating companies. Although the Recovery Act
increased SBA's guaranty percentage for eligible 7(a) loans, it did not increase SBA's
maximum guaranty amount which remained at $1.5 million for total borrower and
affiliate loans. In this case, the guaranty amount on the subject loan ($1,607,400) and the
guaranty amount on the affiliate loan ($478,359) totaled over $2 million. As a result,
these two loans exceeded SBA's maximum guaranty amount by over $500,000. The
lender's credit memo and eligibility checklist also reported that the business was jointly
owned by the husband and wife and as a result, each of them should have provided an
SBA Form 912. However, in this case, only the husband provided an SBA Form 912

10The deficiency was calculated at 15 percent of the $225,000 loan amount. Fifteen percent is the difference between the 90 percent
 guaranty allowed under the Recovery Act and SBA's standard guaranty of75 percent.
                                                                                              24


which showed him to be the sole owner. Furthermore, there were no interim financial
statements or projections in file and as a result, we could not determine if the borrower
had repayment ability. Past due invoices and declining credit scores indicated that the
business was having financial difficulty. Additionally, there was no evidence that the
lender verified the financial information of the operating companies as required. Other
deficiencies included no support for $50,000 of debt refinance and a missing restricted
use certification.

Fina Mart                                            Loan Number 3781515008

We questioned $44,615 of the $641,500 loan approval amount because the business use
of credit card debt that was refinanced with SBA loan proceeds was not adequately
supported. There was no evidence that the lender confirmed the credit card obligations as
having been used for business-related purposes and there was no certification from the
borrower that the amounts were exclusively used for business purposes as required by
SOP 50 10 5(B).

 [FOIA ex. 4]                                        Loan Number [FOIA ex. 4]

We questioned the entire loan approval amount of$500,000 because the borrower had
negative debt service coverage for the year preceding the loan and interim period, and
provided speculative projections. According to the lender's credit memo, debt service
coverage for 2008 was a negative 1.89 and for the seven months ending July 31, 2009,
was a negative 2.67. For the remainder of2009, the lender expected the borrower to
break even. While the borrower's projections showed positive cash flow, they were
difficult to follow and not adequately supported.

Dynamic Turbine, LLC                                 Loan Number 3472555005

We questioned the entire loan approval amount of $705,000 because the lender did not
properly follow-up with the IRS to complete verification of the borrower's financial
information as required. While the lender appropriately filed Form 4506-T with the IRS
to obtain transcripts of the borrower's tax returns, there was no evidence that a second
request was submitted, as required, when it did not receive a response. As a result, there
was no evidence that the lender obtained the transcripts or conducted the required
verification of financial information prior or subsequent to closing.

[FOIA ex. 3,4]                                       Loan Number [FOIA ex. 3,4]

We questioned the entire loan amount of $760,000 because (1) some affiliates were not
disclosed, (2) the operating company was not a co-borrower or guarantor, and (3) the
cash flow projections were not adequately supported. According to the lender's
Eligibility Checklist, there were six affiliates. However, the principal's 2008 Federal tax
return listed                        [FOIA ex. 3]                       Of the seven
companies that were not disclosed on the Eligibility Checklist, State of Louisiana records
showed that the principal was an officer, member, director, or partner in six of them.
                                                                                            25


We also found that the borrower's wholly-owned subsidiary, Pathway Rehabilitation
Hospital of Bossier, LLC, was going to be the operating company. As a result, in
accordance with SOP 50 10 5(A), Pathway Rehabilitation of Bossier, LLC should have
been a co-borrower or guarantor, but was not. Lastly, since the borrower was a start-up,
repayment ability was based on projections. The projections assumed that the facility
would be state-licensed, Medicare certified and that all revenue would be derived from
Medicare patients. At the time of loan approval, however, the borrower was neither
state-licensed or Medicare certified. Furthermore, the business plan stated that the
licensing and certification processes were very bureaucratic and could cause significant
delays. As a result, the projections were not adequately supported.

[FOIA ex. 4, 6]                                     Loan Number [FOIA ex. 4, 6]

We questioned $60,000 of the $280,000 loan approval amount because the business use
of the credit card debt that was refinanced with SBA loan proceeds was not adequately
supported. There was no evidence that two GM business card accounts totaling $20,038
even existed. Furthermore, the remaining credit cards were issued to the principals
personally, but the balances shown on their credit reports did not always match the
amounts paid from loan proceeds. Additionally, the credit card statements and receipts
were not provided as required to ensure the credit cards were used exclusively for
business purposes.

[FOIA ex. 4]                                        Loan Number [FOIA ex. 4]

We questioned the entire loan approval amount of$293,000 because more than 90
percent of the borrower's revenue was to be derived from Federal contracts, but there
were no work in progress reports, discussions of contract terms/renewals, or projections
in file. According to the lender's credit memo, the business was specialized and derived
more than 90 percent of its revenue from US Department of Transportation research
contracts. While the lender requested progress reports, there were none in file.
Furthermore, the credit memo stated that the loan decision was based on the historical
performance of the operating company and projections were not required. This is
contrary to SOP 50 10 5(B) which requires a financial analysis of repayment ability based
on historical income statement and/or tax returns and projections, including reasonable
assumptions. Projections and reasonable assumptions were necessary in this case given
the uncertainty of the contract terms, work in progress, and potential new contracts.
The credit memo, however, simply stated that the operating company was in a prime
position to bid on new contracts and expected revenue growth of more than 40 percent.
Without projections, reasonable assumptions, progress reports, or contract renewal
information, repayment ability was not adequately supported.

[FOIA ex. 4]                                        Loan Number [FOIA ex. 4]

We questioned the entire loan approval amount of $576,500 because repayment ability
was questionable as there were no current financial statements from the Eligible Passive
Company (EPC) in file and not all debts were disclosed. The purpose of the loan was to
                                                                                                 26


refinance existing debts of the EPC and the operating company. While the file contained
current financial statements for the operating company, there were no current interim
financial statements for the EPC in file. Under SOP 50 10 5(A), business financial
statements dated within 90 days of submission of the loan application are required.
Additionally, only those debts being refinanced with the SBA loan were reported in the
loan application, when other debts existed. As a result, we could not verify the total debt
service or determine repayment ability. Additionally, SBA's repayment analysis
contained multiple errors such as using net sales instead of net income as the starting
point for calculating business cash flow and significantly overstating the debt service on
the SBA companion loan.

[FOIA ex. 4, 6]                                        Loan Number [FOIA ex. 4, 6]

We questioned the entire loan approval amount of $500,000 because repayment ability
was questionable. The lender's 2008 global repayment analysis, which included the
borrower's affiliates, showed that cash flow was insufficient to cover debt service.
We could not verify the lender's 2009 global repayment analysis because the file did not
contain current financial statements as required for all but one of the borrower's affiliates.
SBA's repayment ability analysis also could not be relied upon due to a mix-up in the
loan application numbers, causing the SBA to perform its analysis on an unrelated loan
that involved a farm. As a result of these deficiencies, there is no assurance the borrower
had repayment ability.

US Tower Services, Inc.                                Loan Number 3779635010

We questioned the entire loan approval amount of $450,000 because the sale of the
business was not an arm's-length transaction and there was no independent business
valuation in file. According to SOP 50 10 5(B), if there is a close relationship between
the buyer and the seller, the lender must obtain an independent valuation from a qualified
source. In this case, the business was being sold to a group of current employees.
Nevertheless, the business valuation was obtained by the seller and prepared by the
seller's tax accountant, who acknowledged that the valuation was not independent.

[FOIA ex. 4]                                           Loan Number [FOIA ex. 4]

We questioned the entire loan approval amount of$I,390,000 because (1) there was no
evidence of an environmental investigation, (2) debt refinancing was not in compliance
with SBA's policies, and (3) the projections were unsupported. Although the loan was
secured by a first mortgage on commercial real estate, there was no evidence of an
environmental investigation in file. Under SOP 50 10 5(B), the lender is required to
submit the environmental investigation report to the SBA Center processing the
application. Additionally, the purpose of the loan was to refinance same institution debt
and while SOP 50 10 5(B) required the lender to provide SBA with transcripts and a
certification that the loans were current; there was no transcript or certification in file.
Furthermore, the borrower's first year cash flow projections were unsupported. There
was no lender analysis or discussion of underlying assumptions.
                                                                                               27


All About Kids Day Care                               Loan Number 3754435002

We questioned the entire loan approval amount of $400,000 because the sale of the
business was not an arm's-length transaction; there was no independent business
valuation in file; and there was no evidence of the required site visit. According to
SOP 50 10 5(B), if there is a close relationship between the buyer and the seller, the
lender must obtain an independent valuation from a qualified source. In this case, the
change of ownership was between a brother and sister and there was no independent
business valuation in file. The SOP also required the lender to document a site visit of
the assets being acquired in the change of ownership and in this case, there was no
documentation of a site visit.

[FOIA ex. 4]                                          Loan Number [FOIA ex. 4]

We questioned the entire loan approval amount of$1,999,000 because there were no
interim financial statements in file and repayment ability was not adequately supported.
Although the loan was approved in August 2009, the most recent financial statements in
file were as of December 2008. Under SOP 50 10 5(A), business financial statements
dated within 90 days of submission of the loan application are required. As 2008 cash
flow just barely covered the proposed debt service, current financial statements were
needed to determine how the business was currently performing and to assess whether the
lender's projections were reasonable.

[FOIA ex. 4]                                          Loan Number [FOIA ex. 4]

We questioned the entire loan approval amount of $900,000 because the borrower had
negative historical debt service coverage, an interim operating loss, and provided highly
speculative projections. For 2008 and the interim period, cash flow was insufficient to
cover debt service. In order to demonstrate repayment ability, the SBA added back
officer compensation in its analysis but did not provide an explanation or justification for
why this add-back was made. There was no evidence the principals would or could
discontinue taking the officer compensation that the historical financial statements
reflected. According to SOP 50 10 5(B), if the small business lacks reasonable
assurance of repayment in a timely manner from the cash flow of the business, the
request must be declined. Furthermore, the projections were highly speculative and not
adequately supported.
                                                                                                               28


 APPENDIX V: RISK OF LOSS

            T a bl e 1. Sample
                            I dLender-A.pprovedLoans P res en f mg a ROk
                                                                      IS 0 fL oss
                                                               Deficiency
             Loan                                                               Approved          Risk of
  #                               Borrower Name                Type (See
            Number                                                               Amount           Loss*
                                                                Legend)
   1      [FOIA ex. 4]     [FOIA ex. 4]                          A,C,E           $227,800         $34,170
   2      3670895003       L Petro 34th Street Mobile            B,D,E          $1,165,000       $770,000
   3      3761855008       Vanguard International Cinema           B             $531,000         $2,400
   4      3672595000       Brainy Bunch Learning Center           A,D            $647,000        $527,910
   5      3645065010       Meticulous Manufacturing, Inc           A             $600,000         $90,000
   6     [FOIA ex. 3,4]    [FOIA ex. 3,4]                         A,C            $168,500         $25,275
   7      3607165004       Internal Medicine and Family            B             $350,000         $63,608
                           Practice
   8      3834645006       Innovative Finishers                     A,D             $225,000        $36,250
   9      [FOIA ex. 4]     [FOIA ex. 4]                          A,B,C,E           $1,786,000     $1,496,359
   10     3781515008       Fina Mart                                 B              $641,500        $44,615
Totals                                                                             $6,341,800     $3,090,587
 *The nsk of loss was calculated as the SBA's share of the outstanding balance as of February 28, 2011 or
  the loan approval amount allocated to the deficiencies that pose a risk of loss, whichever was less.

             T able 2. Sample
                           I d SBA-A.pprovedLoans P res en f m~ a ROk
                                                                   IS 0 fL oss
                                                               Deficiency
             Loan                                                               Approved          Risk of
  #                               Borrower Name                Type (See
            Number                                                               Amount           Loss*
                                                                Legend)
   1      [FOIA ex. 3,4] [FOIA ex. 3,4]                           A,C               $760,000       $631,253
   2      [FOIA ex. 4, 6] [FOIA ex. 4, 6]                          B                $280,000        $60,000
   3       3779635010     U.S. Tower Services, Inc.                A                $450,000       $352,304
   4      [FOIA ex. 4]    [FOIA ex. 4]                           A,B,C             $1,390,000      $603,500
   5       3754435002     All About Kids Day Care                  A                $400,000       $304,457
Totals                                                                             $3,280,000     $1,951,514
 *The nsk of loss was calculated as the SBA's share of the outstanding balance as of February 28, 2011 or
  the loan approval amount allocated to the deficiencies that pose a risk of loss, whichever was less.

                     Table 3. Other Matter Loan Presenting a Risk of Loss
                                                             Deficiency
             Loan                                                            Approved          Risk of
  #                               Borrower Name              Type (See
            Number                                                            Amount            Loss*
                                                              Legend)
  1     3746145009      Allen Xpress Mart                       A,D           $175,000        $1l5,063
*The nsk ofloss was calculated as the SBA's share of the outstanding balance as of February 28, 2011.

Deficiency Type Legend:

A. Eligibility
B. Use of Proceeds
C. Creditworthiness
D. Equity Injection
E. IRS Verification
                                                                                            29


APPENDIX VI. AGENCY COMMENTS 





                           u.s. SMALL BUSINESS ADMINISTRATION 

                                   WASHINGTON, D.C. 20416 




                                   MEMORANDUM 

                                   September 19, 2011 



To:        John K. Needham
           Assistant Inspector General for Auditing

From:      John A. Miller
           Director, Office of Financial Program Operations

Subject:   Response to Draft Report on the Origination and Closing Deficiencies
           Resulted in an Estimated $869.5 Million in Inappropriate or Unsupported
           7(A) Recovery Act Loan Approvals, Project No. 10505B

Thank you for the opportunity to review the draft report. We appreciate the role of the
Office ofInspector General (OIG) plays in assisting management in ensuring that these
programs are effectively managed.

On February 17, 2009, President Obama signed into law the American Recovery and
Reinvestment Act of2009 (the "Recovery Act") (P.L. 111-5). The Recovery Act
provided the SBA with $730 million to expand the Agency's lending and investment
programs and create new programs to stimulate lending to small businesses. Of the $730
million received, $375 million was authorized for the SBA to (1) eliminate or reduce fees
charged to lenders and borrowers for 7(a) and 504 loans, and (2) increase its maximum
loan guaranty to 90 percent for eligible 7(a) loans. The OIG conducted this audit due to
concerns that (1) lenders would not exercise due diligence in originating and closing
loans given the 90 percent SBA guaranty reduced lender risk, and (2) the SBA would not
properly underwrite loans given the higher loan demand and resource constraints.

The loans reviewed in the audit were approved during the initial stages of the Recovery
Act, between June 1,2009 and January 31,2010. SBA had recently added a large
number of new employees with commercial underwriting background to augment the
existing center staff. The new staff were immediately provided comprehensive SBA
loan underwriting training in order for them to become familiar with SBA requirements.
In addition all work was, and continues to be closely reviewed to ensure quality and
                                                                                               30


consistency with SBA loan underwriting policies. Center loan processing staff has also
undergone continuous training based on commercial lending practices as well as
feedback from quality control and audits.

The audit revealed documentation deficiencies, most of which were non-material, in 24,
or 40 percent, of the 60, 7(a) loans reviewed (14 lender approved and 10 SBA approved)
resulting in what the OIG believes were inappropriate or unsupported loan approvals of
approximately $14.2 million. This amount was then extrapolated to $869.5 million.
According to the OIG, the documentation in the loan files was inadequate to ensure that
the loans:

     • 	 Were made to creditworthy borrowers,
     • 	 Met SBA's eligibility criteria, and/or
     • 	 Had inadequate evidence of equity inj ection, use of proceeds, or Internal Revenue
         Service (IRS) verification.

The draft audit report states on page 5 that that lenders may be able to locate
documentation to cure the deficiencies that were noted on some of the loans at issue. The
report also asserts the financial impact of the estimated projections cannot be determined
because the audit focused on loan approvals as opposed to loan defaults. Finally, the
report affirms the creditworthiness, equity injection and IRS verification deficiencies
cited in the report were not likely to be considered material for the majority of the loans
cited as most of the loans had already performed for more than 18 months. SBA checked
the current status of the 60 loans and confirmed that as of August 31, 2011, none of the
loans have defaulted. Therefore, the majority of the underwriting and closing deficiencies
noted by OIG are not material and will not result in a loss to SBA. SBA considers the
eligibility deficiencies identified on the lender-approved loans as program integrity
issues. Therefore, SBA will attempt to obtain documentation from the lenders to cure
these deficiencies and will take appropriate action, including reducing or canceling
SBA's guaranty, on loans where the eligibility deficiencies cannot be cured.

Management's response to the recommendations in the draft report is noted as follows:

1.      Flag the 10 lender-approved loans with identified deficiencies that pose an
approximate $3 million risk ofloss to the SBA (see Table 1 in Appendix V) to ensure
the deficiencies are properly addressed if the loans default and are submitted for
purchase. Further, notify the OIG ofany denials, repairs, withdrawals, or
cancellations ofSBA 's guaranties made as a result ofthe deficiencies identified during
purchase.

OFPO concurs with this recommendation and plans the following actions:

     • 	 SBA will attempt to obtain documentation from the lenders to cure the
         deficiencies identified in the report as posing a risk of loss to SBA. In the event
         the documentation deficiencies cannot be cured, SBA will take the following
         action based upon the type of deficiency:
                                                                                              31


           o 	 Underwriting and Closing: flag all loans identified in the audit report by
               notating the identified deficiencies in the chron system.
           o 	 Eligibility: contact the lender and notify them that the guaranty will be
               reduced or terminated if they are not able to cure the deficiency.
   • 	 All flagged loans will be reviewed by the SBA if submitted for guaranty purchase
       and if any denials, repairs, withdrawals, or cancellations are found, the OFPO will
       notify the OIG of the results. The chron system will be updated accordingly.


2.     Determine how the deficiencies in the 10 SBA-approved loans occurred and
take corrective action to prevent the occurrence ofsimilar deficiencies in other SBA­
approved 7(A) loans. Deficiencies on five ofthese loans pose an approximate $2
million risk ofloss to the SBA (see Table 2 in Appendix V).

OFPO concurs with this recommendation. As stated above, these loans were approved
early in the Recovery Act when a large number of new staff had arrived. Since that time
substantial loan processing training has taken place.

OFPO will take the following actions in response to this recommendation:

   • 	 The Citrus Heights 7(a) loan processing center will review the 10 SBA-approved
       loans to determine how the deficiencies occurred. All 10 loans will be flagged in
       the chron system in order to properly address the deficiencies if submitted for
       guaranty purchase.
   • 	 OFPO will incorporate feedback based on the deficiencies identified in this report
       into its continuous loan processing training, in order to prevent the occurrence of
       similar deficiencies in other SBA-approved 7(a) loans

3.    Notify the improper payment review team ofthe high rate ofimproper 7(a) loan
guaranties identified during this audit to ensure the proper estimation ofimproper
payment in the 7(a) loan program.

OFPO will notify the team conducting improper payment reviews to use the findings in
this audit as training for individuals involved in subsequent improper payment reviews.

4.     Notify the National Guaranty Purchase Center ofthe high number of
deficiencies identified and require the center to carefully review Recovery Act loans
that default for compliance with SBA's requirements, (particularly in the areas of
creditworthiness, eligibility, use ofproceeds, equity injection, and IRS tax verification).

OFPO will notify the National Guaranty Purchase Center of the findings in this audit, and
will use the information for training of center staff involved in the guaranty purchase
process for all loans, with special emphasis on Recovery Act loans. OFPO will stress
compliance with eligibility requirements and material compliance with credit
requirements.
                                                                                             32


5.      Flag the loan identified in the Other Matters section ofthe report to ensure the
deficiencies are properly addressed if the loan defaults and is submitted for purchase.
This loan poses an approximate $115,063 risk ofloss to the SBA. Further, for this
loan, notify the OIG ofany denial, repair, withdrawal, or cancellation ofSBA 's
guaranty made as a result ofthe deficiencies identified during the purchase review.

OFPO concurs with this recommendation and has already taken the following actions:

   • 	 Flagged the loan identified in the Other Matters section by noting the identified
       deficiencies in the chron system to ensure the deficiencies are properly addressed
       if the loan defaults and is submitted for guaranty purchase.
   • 	 Provided a brief note in the chron system advising the purchase center to provide
       notice on any denial, repair, withdrawal or cancellation of guaranty resulting from
       the identified deficiencies to Office ofInspector General.

Again, thank you for the opportunity to review the draft report. Please let us know if you
need additional information or have any questions regarding our response.
